<html>
<title> - EMPOWERING WOMEN AND GIRLS AND PROMOTING INTERNATIONAL SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       EMPOWERING WOMEN AND GIRLS
                  AND PROMOTING INTERNATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2020

                               __________

                           Serial No. 116-106

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
 				__________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-185 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                            
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                     Daniel Rebnord, Chief Counsel
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Glenn Grothman, Wisconsin, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Michael Cloud, Texas
Mark DeSaulnier, California          Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Clay Higgins, Louisiana
Brenda L. Lawrence, Michigan
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 23, 2020....................................     1

                               Witnesses

The Honorable Kelley Currie, Ambassador-at-Large for Global 
  Women's Issues, Department of State
Oral Statement...................................................     5
The Honorable Michelle Bekkering, Assistant Administrator, Bureau 
  for Economic Growth, Education and Environment, U.S. Agency for 
  International Development
Oral Statement...................................................     8
Stephanie Hammond, Acting Deputy Assistant of Defense for 
  Stability and Humanitarian Affairs, Department of Defense
Oral Statement...................................................    10
Cameron Quinn, Officer for Civil Rights and Civil Liberties, 
  Department of Homeland Security
Oral Statement...................................................    12

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.
                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

  * Questions for the record: to Ambassador Currie, U.S. 
  Department of State; submitted by Rep. Lynch.

  * Questions for the record: to Ambassador Currie, U.S. 
  Department of State; submitted by Rep. Speier.

  * Questions for the record: to Ambassador Currie, U.S. 
  Department of State; submitted by Rep. Foxx.

  * Questions for the record: to Ms. Bekkering, Agency for 
  International Development; submitted Rep. Lynch.

  * Questions for the record: to Ms. Bekkering, Agency for 
  International Development; submitted by Rep. Speier.

  * Questions for the record: to Ms. Bekkering, Agency for 
  International Development; submitted by Rep. Foxx.

  * Questions for the record: to Ms. Hammond, U.S. Department of 
  Defense; submitted by Rep. Speier.

  * Questions for the record: to Ms. Hammond, U.S. Department of 
  Defense; submitted by Rep. Foxx.

  * Questions for the record: to Ms. Quinn, Department of 
  Homeland Security; submitted by Rep. Wasserman Schultz.

  * Questions for the record: to Ms. Quinn, Department of 
  Homeland Security; submitted by Rep. Foxx.

 
                       EMPOWERING WOMEN AND GIRLS
                  AND PROMOTING INTERNATIONAL SECURITY

                        Thursday, July 23, 2020

                   House of Representatives
          Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Welch, Rouda, Maloney, 
DeSaulnier, Grothman, Gosar, Green, Higgins and Comer.
    Mr. Lynch. Good morning. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
an opening statement.
    Today, our subcommittee will examine the role of women and 
girls in overseas crisis prevention, diplomacy, peacekeeping, 
and post-conflict reconciliation.
    According to an October 2016 report from the Council on 
Foreign Relations, the substantial inclusion of women and civil 
society groups in a peace negotiation makes that peace 
negotiation ``64 percent less likely to fail,'' closed quote.
    Moreover, several studies have shown that higher levels of 
gender equality are associated with a lower propensity for 
conflict, both between and within states.
    The consequences for a U.S. national security policy are 
clear. Not only do women deserve a seat at the table, but 
meaningful consideration of their voices and interests will 
lead to greater security and stability in fragile states and 
post-conflict environments around the world.
    To that end, in October 2017 Congressed passed the Women, 
Peace, and Security Act, which requires the administration--the 
Trump administration--to produce a strategy to support the 
meaningful participation of women in all aspects of overseas 
conflict prevention, management, and resolution and post-
conflict relief and recovery efforts.
    In June 2019, the Trump administration released the U.S. 
Women, Peace, and Security Strategy and on June 11, 2020, the 
Departments of State, Defense, Homeland Security, and the U.S. 
Agency for International Development each released 
implementation plans to support the Women, Peace, and Security 
Strategy.
    While the Women, Peace, and Security Strategy looks good on 
paper, the administration has repeatedly refused to demonstrate 
a firm commitment to defending the rights of women and girls, 
notably, by attacking access to sexual and reproductive health 
and then by sidelining women during conflict resolutions and 
peace negotiations.
    For example, the peace deal negotiated between the United 
States and the Taliban earlier this year does nothing to 
protect the rights of Afghan women and girls, threatening to 
reverse nearly 20 years of progress helping them to become 
successful participants of Afghan political and civic life.
    The administration has also repeatedly attacked global 
women's access to sexual and reproductive health. In April 
2017, the Trump administration announced it would suspend 
funding to the U.N. Population Fund, which provides family 
planning and reproductive health services in over 150 
countries.
    In September 2019, Secretary of Health and Human Services 
Alex Azar told the U.S. General Assembly that the U.S. does not 
support, quote, ``references to ambiguous terms and expressions 
such as sexual and reproductive health rights in U.N. 
documents,'' closed quote.
    I am also concerned that the administration may not have 
the political will to invest the necessary commitment and 
resources to advance the ideals enshrined in the Women, Peace, 
and Security Strategy.
    In fact, the document kneecaps itself in its opening pages, 
cautioning that the United States will, quote, ``engage 
selectively,'' closed quote, and will likely not be able to 
advance women, peace, and security principles in every corner 
of the globe.
    We should also take this opportunity to seriously examine 
whether the United States is doing enough to promote and 
encourage women to serve in senior leadership positions within 
our own government.
    For decades, the national security field has been dominated 
by men, and I look forward to hearing from today's witnesses 
about how their departments are working to address gender 
disparities and inequalities within their own ranks.
    Finally, I would like to thank our witnesses for testifying 
before us today. The subcommittee previously invited the 
Department of State, Defense, Homeland Security, and the U.S. 
Agency for International Development to testify at a virtual 
hearing in June. But the agencies refused, citing, quote, 
``White House OMB guidance sent to all House and Senate 
committees on May 29,'' closed quote.
    So, let me be clear. Congress does not--it is Congress, not 
the executive branch, that determines how to conduct its own 
business, but the subcommittee is pleased to accommodate the 
administration in this case, given the importance of the 
subject matter at hand.
    With that, I will now turn the floor over to Congressman 
Grothman, our ranking member, the gentleman from Wisconsin for 
the great state of Wisconsin, for his opening remarks.
    Mr. Grothman. Thank you, and thank you for having this 
hearing.
    First of all, I will point out at least as far as I am 
concerned, this is the first or second hearing that I have had 
since I have been here in which all four of our witnesses sent 
over by the administration are women. So, just pointing that 
out. A little bit historical to me, anyway.
    Second thing, I am a little bit concerned about a letter 
here--I don't know if you want to bring this up--that you and 
Carolyn Maloney signed to the Secretary of State and Secretary 
of Defense being critical of the administration.
    In this letter, I think you are kind of holding them to an 
absurdly high standard. You are a little bit upset that we 
didn't get more rights for women in Afghanistan, and I will 
point out I think it is true, rightfully or wrongfully, and I 
am not a big fan of interfering in Afghanistan.
    But if the United States gets involved in other countries, 
wherever it is--Iraq, Afghanistan--probably human rights, 
rights of women and human rights in general go up, and when the 
United States leaves countries human rights probably go down.
    I think that is probably true of Afghanistan, at least I--I 
think I am among the majority of Americans who felt that we 
probably had a lot of people in Afghanistan for a long time, 
disrupting their families, sometimes dying, and our plea is 
that President Trump is drawing down the number of troops in 
Afghanistan.
    But I think one has to understand that as one pulls down 
the number troops in Afghanistan our influence in Afghanistan 
wanes and we have to be aware that it is a little bit 
hypocritical on one hand to say American troops out of Iraq, 
American troops out of Afghanistan, and then complain when the 
human rights of people in general and women in particular drop 
because most countries around the world, historically, are not 
like the Westernized United States.
    So, it just--you know, this letter is, obviously--I am 
concerned about the rights of women in Afghanistan but I want 
you to be aware there is kind of a contradiction between saying 
I want U.S. out of Afghanistan and then saying I want the U.S. 
to Westernize Afghanistan.
    Mr. Lynch. Would the gentleman yield for 30 seconds?
    Mr. Grothman. Sure.
    Mr. Lynch. The letter is informed by the fact that myself 
and a bipartisan group of Members of Congress met with the 
negotiating team at the Munich Security Conference and we asked 
the negotiating team if they had put rights of Afghan women and 
girls on the negotiating table in the negotiations with the 
Taliban.
    So, it was the U.S. Government and the Taliban negotiating 
bilaterally. I asked if we had put the rights of women and 
girls in Afghanistan on the negotiation table. They said they 
did not, and they would not.
    That is what the letter is referring to. You don't have to 
stay in Afghanistan with a heavy troop presence in order to 
proffer the rights of women and girls in Afghanistan as an 
issue in the peace negotiations and that is what we were 
complaining to.
    So, I will yield back. I thank the gentleman for his 
courtesy.
    Mr. Grothman. OK. Just one other comment.
    We talk a lot about, you know, I guess, the right of choice 
or whatever, and I will point out that right now the United 
States is, I believe, one of seven countries in the world, 
according to the Washington Post, to allow what would amount to 
late-term abortion or at least an unfettered right to a late-
term abortion.
    I don't think it is necessarily a positive thing for the 
United States to throw our substantial economic might around 
and impose that belief in other countries around the world.
    I think some of the people are a little concerned that the 
U.S. may do it. But now I will give my opening comment here.
    Thank you, Mr. Chairman, for holding this important hearing 
and thank you for all the witnesses here today. I am grateful 
that this hearing is taking place in person.
    Thank you for allowing us to do that, and I acknowledge the 
current public health crisis but think it equally important 
that we heard from the witnesses directly. I always get a 
little bit more out of the live hearing.
    You have insinuated the administration, by advocating for 
in-person hearing, is intentionally putting workers in 
jeopardy. I think that is a wild accusation.
    I do not feel right now that I am being threatened in this 
hearing and, quite frankly, I am closer to people whenever I 
get home usually in a retail setting or whatever.
    I hope we can work together in the future to ensure our 
hearings are in-person while abiding by the safety protocols. 
It is an important topic in an effort by the Trump 
administration that should be heralded.
    In October 2017, President Trump signed the historic Women, 
Peace, and Security Act. In fact, this law made the U.S. the 
first country in the world with a comprehensive law on women, 
peace, and security.
    The act emboldened the president to set unprecedented U.S. 
policies, promoting global equality by recognizing the 
contribution that women and girls make to the world's security 
and stability.
    The president released the first U.S. Strategy on Women, 
Peace, and Security in 2019 in June. The strategy focuses on 
both increasing women's participation in political, civic, and 
security endeavors and creates conditions for long-term peace.
    Both goals are noble and unequivocally bipartisan. It is 
clear from past experiences that promoting women and girls in 
government leads to a more robust global harmony. The president 
said--President Trump--nations that empower women are much 
wealthier, safer, and more political stable.
    We are here today to learn what each of these agencies are 
doing to advance the cause. The Department of State is 
increasing women's participation in decisionmaking, protecting 
against gender-based violence and counter violent extremism.
    The Department of Defense is promoting the safety of women 
and girls during conflicts. USAID is strategically investing in 
international programs that promote women's leadership and 
empowerment and Homeland Security is acting in support of all 
the other agencies' missions.
    This is a global effort led by the Trump administration to 
make us safer and the world more prosperous. The administration 
is committed to expanding the role of women in peace and 
security.
    These efforts work and we commend the Trump administration.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Lynch. The gentleman yields back.
    At this point I would like to introduce our witnesses. Our 
first witness today is the Honorable Kelley Currie, who is the 
Ambassador-at-large for Global Women's Issues at the Department 
of State.
    We will also hear from the Honorable Michelle Bekkering, 
who is the assistant administrator at the Bureau for Economic 
Growth, Education, and Environment at the U.S. Agency for 
International Development.
    We will also hear from Stephanie Hammond, who is the acting 
deputy secretary--excuse me, Deputy Assistant Secretary of 
Defense for Stability and Humanitarian Affairs at the 
Department of the Defense.
    And, finally, we will hear from Cameron Quinn, who is the 
Officer for Civil Rights and Civil Liberties at the Department 
of Homeland Security.
    It is the custom of this subcommittee to swear our 
witnesses. So, I would ask our witnesses to please rise.
    Raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Chorus of ayes.]
    Mr. Lynch. OK. Let the record show that the witnesses have 
answered in the affirmative. Please be seated.
    Without objection, your written statements will be made 
part of the record.
    With that, Ambassador Currie, you are now recognized for 
your--for a summary of your testimony.

  STATEMENT OF KELLEY CURRIE, AMBASSADOR-AT-LARGE FOR GLOBAL 
              WOMEN'S ISSUES, DEPARTMENT OF STATE

    Ms. Currie. Thank you, Mr. Chairman, and thank you, Ranking 
Member Grothman and thank you, Chairwoman Maloney, for joining 
us today in this important hearing, and to the other members of 
the subcommittee.
    I am delighted to be here to share with you the successes 
the United States has achieved since the passage of the 
bipartisan Women, Peace, and Security Act of 2017 and to talk 
about how the United States continues to lead the effort to 
empower women worldwide.
    I would like to take a moment to also recognize the great 
contributions and support that we received from the Women, 
Peace, and Security Caucus here in Congress that was recently 
formed, and especially note its co-chairs, Congresswoman Lois 
Frankel and Congressman Mike Waltz, who have been really 
important leaders on this issue and people that we turn to for 
support and encouragement as we continue to move this effort 
forward.
    I also want to say that thanks to the incredible bipartisan 
support and cooperation between President Trump and Congress, 
as we head into the 20th anniversary of the United Nations 
Security Council Resolution 1325, which established the Women, 
Peace, and Security agenda item on the Security Council agenda, 
the United States remains the world's leading voice for women's 
empowerment politically, economically, and socially.
    When Congress passed and the president signed the WPS Act 
in 2017, we became the first and still the only country in the 
world to enshrine these commitments into national legislation.
    This is a remarkable bipartisan achievement and it is one 
that we take very seriously, and we hold it as a strong--as an 
important trust as we carry this work out.
    In 2019, the United States reaffirmed our commitment with 
the release of the U.S. National Strategy on Women, Peace, and 
Security by the White House.
    This whole of government approach charged the four leading 
agencies represented here today with--to develop Women, Peace, 
and Security implementation plans that were mission specific, 
innovative, and perhaps most importantly, measurable.
    The State Department is uniquely positioned to reinforce 
Americans'--the leadership in Women, Peace, and Security in 
four key areas: policy, diplomacy, partnerships, and 
innovation. Sorry, innovative programs.
    Through the department's global presence, we have a 
structural comparative advantage to engage partners on the 
ground through our actions with nearly 300 embassies, 
consulates, and diplomatic missions all around the world as 
well as through our robust presence here in Washington and our 
excellent mission in New York.
    Last month, the State Department released our Women, Peace, 
and Security implementation plan, which provides a roadmap to 
achieve measurable progress by 2023.
    The department's work has been in close partnership with 
the interagency, our allies and partners, and undertaken an 
extensive consultation with women's groups, civil society 
organizations, and local implementing partners.
    Our efforts are laser focused on countries that are 
currently experiencing armed conflict, violent extremism, or 
gross systematic abuses of women and girls.
    We are also looking at those nations that are emerging from 
conflict and those that are most at risk of falling into 
conflict or crisis throughout partnership with the Conflict and 
Stabilization Bureau that is working on the Global Fragility 
Act.
    These two complementary pieces of legislation have given us 
excellent tools to tackle these problems. The department is 
also monitoring and engaging in countries with a history of 
atrocities, especially those with a pattern of inflicting 
systemic abuse against women and girls, including sexual 
violence, and again, this is in response to the Elie Wiesel Act 
that Congress passed.
    So, we have really, again, great partnership through 
congressional action and administration implementation.
    The department's Women, Peace, and Security agenda is at 
work in more than 30 countries in conjunction with more than 10 
regional and international organizations.
    Here at home, the department offers nearly 50 training 
programs to ensure state personnel have the tools they need to 
bring WPS into U.S. diplomacy.
    I would like to highlight one specific example of our 
Women, Peace, and Security work in action that demonstrates 
America's leadership on this issue as well as tangible results 
of U.S. engagement led by the Department of State, and here I 
am referring to our commitment to Afghanistan, which has been 
remarked upon before.
    All of us recognize how much is at stake if women are not 
able to participate meaningfully at the negotiating table in 
Afghanistan. Now, more than ever, women's voices must be heard 
to define not only their futures but the future of their 
nation.
    Afghanistan still has far to go on women's meaningful 
inclusion in decisionmaking and political processes. But the 
Afghan government took an important step earlier this month in 
announcing that it will appoint one female deputy Governor in 
each of Afghanistan's 34 provinces. Seven of them are already 
in place.
    Following sustained U.S. engagement, we can today also 
report that four women have been named to their government's 
negotiating team for inter-Afghan negotiations, representing 
nearly 20 percent of the negotiating team.
    Finally, I would like to end with one thought about 
something that has been threaded through my work here in the 
administration for the past three years, and this is regarding 
the malign influence that we are seeing from Russia and the 
People's Republic of China through the United Nations and other 
international organizations and, more broadly, how they are 
attacking the fundamental human rights that we all hold dear in 
this country and the normative framework that upholds them 
through international organizations and joint action.
    The United States remains strongly committed to ending the 
horrible scourge of sexual violence in armed conflict, holding 
perpetrators accountable, and supporting survivors. The U.S. 
has been a leading supporter, both politically and financially, 
of the United Nations Secretary General's Special 
Representative on sexual violence in armed conflict since the 
creation of this mandate, which the United States led.
    I have personally worked with the SRSG on sexual violence 
in armed conflict, Pramila Patten, over the past three years to 
advance the remarkable work of her office.
    By contrast, malign actors such as Russia and China 
threaten global peace and security by weakening international 
norms and manipulating legitimate security concerns to justify 
denial of human rights, and they do this in the Security 
Council and the General Assembly and everywhere else they can.
    We will continue to fight these influences by empowering 
women and girls worldwide and promoting and protecting the 
human rights and dignity of all.
    Diplomacy in the 21st century demands effective, creative, 
and innovative foreign policy that spurs diversity of thought 
and inclusive durable solutions.
    Women, Peace, and Security is an example of how the United 
States has adapted to this imperative and as I look down this 
beautiful witness panel today and see my fellow leaders in this 
important effort, I know that we are doing what we need to be 
doing in this area.
    We are building a strong foundation for worldwide consensus 
including through effective multilateral fora to advance 
genuine sustainable and prosperous opportunities for women.
    While we may not always agree on every aspect of the 
implementation of this agenda, I firmly believe we must focus 
on the critical work we can do together and there is areas that 
enjoy strong consensus to build effective initiatives that 
yield meaningful results.
    The women of the world are counting on us to do this. The 
United States will continue to be a champion for women and 
human rights worldwide.
    It is in support of these foundational principles that 
together we have the opportunity to change the futures for 
millions of women and girls around the world.
    Thank you, and I look forward to your questions.
    Mr. Lynch. Thank you, Ambassador.
    Now we will turn to Administrator Bekkering.
    Administrator Bekkering, you are now recognized for five 
minutes.

   STATEMENT OF MICHELLE BEKKERING, ASSISTANT ADMINISTRATOR, 
  BUREAU FOR ECONOMIC GROWTH, EDUCATION AND ENVIRONMENT, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Bekkering. Well, thank you, Chairman Lynch, Ranking 
Member Grothman, Chairwoman Maloney, and the other 
distinguished members of this subcommittee.
    I, too, am grateful to be here today to testify before you 
on this critical national security issue of women, peace, and 
security, and the role that the U.S. Agency for International 
Development plays in supporting the U.S. government's WPS 
strategy along with our success to date.
    It is an honor as well to join my colleagues from the U.S. 
Department of State, Defense, and Homeland Security, and I, 
too, would like to take this opportunity to recognize the newly 
formed WPS Caucus and express sincere appreciation to 
Representatives Waltz and Frankel for their long-standing 
commitment to the WPS agenda.
    Women leaders are often at the forefront of movements to 
demand greater political freedoms, peace, and justice, yet they 
are frequently excluded from meaningful participation in the 
very peace negotiations and political settlements where their 
countries' futures and theirs are being shaped.
    Studies show that when women participate in peace processes 
the resulting agreement is 35 percent more likely to last at 
least 15 years.
    At USAID, we understand that investing in women's 
leadership and empowerment is critical for breaking the cycles 
of conflict and instability that threaten our global security 
and for advancing our mission of supporting our partner 
countries on their own journeys to self-reliance.
    USAID's new implementation plan is an important opportunity 
to focus our efforts on women, peace, and security through 
effective coordinated action across our development and 
humanitarian assistant efforts.
    Since 2017, USAID activities have funded the participation 
of 70,000 women in political and peace-building processes while 
providing critical care, psychosocial support, legal aid, and 
economic services to more than 6 million survivors of gender-
based violence.
    In fiscal years 2018 and 2019, the agency invested over 
$200 million in programming to empower and protect women and 
girls affected by crisis and conflict.
    USAID works to implement all four lines of effort in the 
WPS strategy and I would like to highlight just a few examples 
of these efforts.
    We continue to support programs which increase women's 
meaningful participation and leadership in peace and political 
processes.
    In the Republic of Guinea, USAID works through local 
partners to empower women to serve as young peace Ambassadors 
and as members of local peace-building platforms.
    The agency has also expanded our programming to address the 
needs of women and girls affected by violent extremism and to 
increase women's participation in preventing and responding to 
radicalization in their communities.
    In the kingdom of Morocco, programming will interrupt 
recruitment activities and bolster the resilience of women to 
counteract the influence of violent extremism organizations.
    We also continue to prioritize activities to protect women 
and girls from violence in humanitarian emergencies with $178 
million in programming designed to improve the safety and well 
being of women and girls and other vulnerable populations who 
are risk for gender-based violence.
    We are also investing in our internal capabilities to 
ensure our personnel have the skills to integrate women's 
empowerment priorities in strategies and programs.
    In the last two fiscal years, USAID has offered 80 training 
sessions or courses aligned with the requirements of the WPS 
Act of 2017, which reached more than 10,000 of our staff.
    We also encouraged our partner countries to improve the 
meaningful participation of women in peace and security 
decisionmaking and institutions.
    Through support for a continental results framework, 
USAID's partnership with the African Union has contributed to 
an increase in the number of member states that have adopted 
national and regional action plans for the implementation of 
the WPS agenda.
    And finally, we are consistently seeking innovative better 
ways to measure our results. USAID remains committed to 
monitoring and evaluating our efforts to ensure the effective 
stewardship of taxpayer resources.
    I look forward to our continued collaboration with 
Congress, including the WPS Caucus, this committee, the 
interagency, and all of our partners to advance this important 
agenda.
    Thank you again for the opportunity to appear before you 
today and I welcome your questions.
    Mr. Lynch. Thank you.
    Next, from the Department of Defense, we will have 
Assistant Secretary Hammond.
    Secretary Hammond, you are now recognized for five minutes.

  STATEMENT OF STEPHANIE HAMMOND, ACTING DEPUTY ASSISTANT OF 
 DEFENSE FOR STABILITY AND HUMANITARIAN AFFAIRS, DEPARTMENT OF 
                            DEFENSE

    Ms. Hammond. Good morning, Chairman Lynch and Ranking 
Member Grothman, distinguished members of the House Oversight 
and Reform Subcommittee on National Security.
    It is an honor to testify before you today on the 
Department of Defense implementation of the U.S. Strategy on 
Women, Peace, and Security, or WPS.
    DOD supports the whole of government implementation of the 
WPS Act and Strategy, and views this effort as essential to our 
national security.
    Global conflict is evolving, and the need to identify 
sustainable security solutions that meet the needs of an entire 
population is greater than ever.
    As our adversaries and competitors continue to seek the 
strategic advantage, the United States and our partners must be 
better prepared to meet security challenges by recognizing the 
diverse roles that women play in conflict and by incorporating 
their perspectives throughout our plans and our operations.
    The destabilizing effects of malign actors highlight the 
importance of the global WPS agenda in upholding international 
human rights and the rules-based international order the United 
States and our allies and partners seek to maintain.
    Advancing the U.S. Strategy in WPS provides a unique 
engagement opportunity to strengthen relationships with our 
allies and partners through collective efforts to reinforce 
women's empowerment, meaningful participation and 
decisionmaking, protection from violence, and access to 
resources.
    Earlier this month, in accordance with the WPS Act in 2017, 
and the U.S. Strategy on WPS, the Department of Defense, 
alongside our interagency partners, launched its WPS strategic 
framework and implementation plan.
    This document is the first department wide implementation 
plan that outlines how we will support the intent of the U.S. 
Strategy in WPS through attention to the composition of our 
personnel and the development of our policies, plans, doctrine, 
training, education, operations, and exercises.
    This approach will support the National Defense Strategy 
and increase our operational effectiveness by helping the 
department to strengthen alliances and attract new partners by 
demonstrating U.S. commitment to human rights and women's 
empowerment, making the U.S. the partner of choice and to 
reform the department for greater performance and affordability 
by developing more effective strategies to mitigate risks and 
optimize mission success.
    This plan details three overarching defense objectives to 
orient the department's implementation of the U.S. Strategy in 
WPS, which are as follows.
    First, the Department of Defense exemplifies a diverse 
organization that allows for women's meaningful participation 
across the development, management, and employment of the Joint 
Force.
    Second, women in partner nations meaningfully participate 
and serve at all ranks and in all occupations in the defense 
and security sectors.
    And third, partner nation defense and security sectors 
ensure women and girls are safe and secure, and that their 
human rights are protected, especially during conflict and 
crisis.
    Recognizing these objectives cannot be accomplished 
overnight. The plan also includes intermediate defense 
objectives achievable over the life of the plan.
    This plan will support and advance the department's ongoing 
activities to implement WPS, which have significantly increased 
since the enactment of the WPS Act with the support of funding 
from Congress.
    The department currently has an active network of WPS 
advisors of the combatant commands as well as in the Joint 
Staff and in the Office of the Secretary of Defense.
    These personnel advise commanders and staff on how to 
integrate gender perspectives into operations and organize 
engagements with our partner nations.
    To date, we have engaged more than 50 partner nations to 
demonstrate the value of women's meaningful participation, 
empowerment, and safety to our national security, to share best 
practices on the recruitment, employment, development, 
retention, and promotion of women in our military forces.
    These engagements have included conferences, training 
events, standard operating procedure development, and 
integration in WPS principles in military operations and 
multilateral exercises such as Flintlock, Khaan Quest, and 
Pacific Sentry.
    One example of a partner nation engagement is in Niger, 
where DOD is working to help their armed forces adapt their 
recruitment methods to increase the number of women in their 
ranks and to promote women into leadership positions.
    In fact, Niger's air force now has its first female pilot, 
who was trained by the United States as a part of a program to 
combat Boko Haram. She is now an operational squadron commander 
and has conducted multiple combat deployments.
    Another example is in the Indo-Pacific Command, where our 
WPS advisors have engaged with local organizations in countries 
such as Mongolia to work with women in rural areas in building 
their resiliency and leadership skills such as in disaster 
response and in relief efforts.
    With the department's own forces, formal training programs 
are being developed and piloted beginning with WPS advisors and 
senior leaders. We have also worked to integrate WPS into 
training modules such as training on combating trafficking in 
persons.
    Now, with the launch of the department's WPS strategic 
framework and implementation plan, the department will further 
institutionalize and expand on this critical WPS engagement 
across all components and continue to coordinate closely with 
our interagency partners on this initiative to make the United 
States safer and more secure.
    We are grateful for the congressional support of this 
important initiative and are particularly grateful for the WPS 
funding that DOD has so generously received from Congress over 
the past several years.
    Thank you very much for this opportunity to testify.
    Mr. Lynch. Thank you very much.
    We will now hear from the Department of Homeland Security 
Officer for Civil Rights and Civil Liberties, Ms. Cameron 
Quinn.
    Ms. Quinn, you are recognized.
    Microphone.

STATEMENT OF CAMERON QUINN, OFFICER FOR CIVIL RIGHTS AND CIVIL 
           LIBERTIES, DEPARTMENT OF HOMELAND SECURITY

    Ms. Quinn. Sorry. And thank you as well, Chairwoman 
Maloney, Ranking Member Comer, Ranking Member Grothman, and 
other distinguished members of the committee for this 
opportunity to speak before you today on the Department of 
Homeland Security's implementation of the homeland security--
excuse me, implementation of the Homeland Security 
Implementation Plan.
    Also, a pleasure to be here today on such a panel with my 
key colleagues for implementing Women, Peace, and Security 
across the entire U.S. Government.
    As the Nation's largest law enforcement and security 
agency, the Department of Homeland Security recognizes well the 
importance and the impact that women have in senior leadership 
positions and really helping to value those aspects that they 
bring.
    The department works systemically to advance the inclusion 
of women across the department as well as other 
underrepresented populations to reflect the United States.
    The department also has extensive contacts with foreign 
partners in trying to advance its mission and to provide--and, 
as a result, provides training and exchange opportunities to 
position DHS to influence in a focused way international 
efforts to improve women's inclusion in foreign security 
partners' activities.
    While the department's official efforts related to when 
peace and security are just getting started, we have been able 
to identify across the department already a number of 
initiatives underway that really do help advance Women, Peace, 
and Security, and this act brings a welcome focus on being able 
to capture the metrics to actually demonstrate with the 
department has been doing under Women, Peace, and Security.
    Since January, the department's focus has been to identify 
baseline efforts that are already underway and to identify a 
really key group of working partners across the department and 
the various components that can help us support the WPS goals.
    The focus for our first reporting period next year will be 
the collection of data showing what it is that has already been 
occurring across the department and what kind of funding is 
being spent, whether the department's or other partner 
agencies' funding, to support this training.
    Using this baseline, we will then be able to develop better 
sort of our plans for promoting Women, Peace, and Security and 
improving what we are doing over the future.
    DHS leaders, including executive leadership, really are 
very excited about this opportunity to partner with our fellow 
agencies across the government to really significantly impact 
the Women, Peace, and Security Strategy that had such strong 
bipartisan support.
    They recognize, as I do, that Women, Peace, and Security 
helps the department to achieve its goal of safeguarding the 
American people, our homeland, and our values--the department's 
mission.
    On a personal note, I will share that very early in my 
Federal career I spent a little bit of time over at the 
Department of Labor's Women's Bureau. We are the only Federal 
agency that is actually mandated to represent the needs of 
wage-earning women in public policy.
    About a decade later, I was at the U.S. Merit System 
Protection Board and was very involved in the first ever 
women's--excuse me, glass ceiling study. Somehow it seems a 
fitting capstone to have the opportunity now to be the first 
woman leading the Department of Homeland Security's efforts in 
Women, Peace, and Security.
    So, I really appreciate this opportunity and I thank you, 
again, for the chance to appear today and look forward to 
answering any questions you have.
    Thank you very much.
    Mr. Lynch. Thank you, and thank you got your service.
    At this time, that concludes the witness testimony. At this 
point, I would like to recognize the full chairwoman for the 
Committee on Oversight and Reform, the gentlelady from New 
York, Ms. Maloney, for five minutes.
    Mrs. Maloney. Thank you so much, Mr. Chairman, and Ranking 
Member Grothman. I appreciate your steadfast leadership on this 
issue and especially regarding the rights of women and girls in 
Afghanistan, and this is one of many hearings that Chairman 
Lynch has had on women in Afghanistan.
    We know the story, the cruel treatment--not allowed to be 
educated, terrible treatment of women--and the research noted 
by the panelists today--thank you all for your service and your 
testimony--that in countries where women are respected and 
empowered there is more stability. There is less terrorism. It 
is an investment in peace to invest in the empowerment of 
women.
    So, I do want to put this hearing in perspective. Last 
week, the full committee held a hearing to examine whether the 
United States should create a national cyber director to 
coordinate our national cybersecurity policy. It was bipartisan 
and we are moving together to make that happen.
    I think Congress should consider establishing a similar 
position or council at the White House to advance women, peace, 
and security principles like the one that President Obama had 
advanced.
    This would send a strong signal about the United States 
commitment to empowering women and girls in political and civic 
life, both overseas and here at home, while coordinating whole 
of government implementation of Women, Peace, and Security 
Strategy.
    I also think it is very important that the department and 
agency officials tasked with this implementation of peace and 
security report directly to the secretary.
    Ambassador Currie, the Office of Global Women's Issues at 
the State Department is within the Office of the Secretary. Is 
that correct?
    Ms. Currie. Yes.
    Mrs. Maloney. Can you briefly speak to how that direct 
access to the secretary is beneficial to your ability to 
advance the Women, Peace, and Security agenda?
    Ms. Currie. I certainly can. Thank you for the question.
    Being able to work directly for the secretary is actually--
and I have worked in other positions in the department, and as 
some of you have worked in Federal agencies know, bureaucracy 
is often a impediment to getting things done quickly.
    I am able to move things very quickly through the system 
because I do enjoy direct access to the secretary. I work 
directly with his team on these issues and can move paper and 
move ideas and initiatives through very quickly and it gives us 
an added imprimatur of authority that we are working directly 
under the secretary.
    So, I think it is a very beneficial structure. This is the 
way the office was set up by the Obama Administration and we 
retained it, and the White House strongly supports keeping the 
Office of Global Women's Issues directly reporting to the 
secretary.
    Mrs. Maloney. Thank you. I also think it is very important 
that senior agency officials tasked with implementing the 
Women's Peace and Security agenda are focused exclusively on 
that mission.
    So, Ms. Quinn, in addition to your role in implementing the 
Women's Peace and Security Strategy for DHS, can you describe 
some of your other responsibilities as Officer for Civil Rights 
and Civil Liberties?
    Ms. Quinn?
    Ms. Quinn. Madam Chairman, the--in addition to that, we are 
responsible for the EEO programs across the department.
    We are responsible for the public complaint system across 
the department, working in conjunction with our component 
agencies and we also proactively provide advice and assistance 
to the secretary and other senior leaders across the department 
on civil rights and civil liberties, of which we feel Women's 
Peace and Security fits very nicely.
    Mrs. Maloney. OK.
    Ms. Hammond, I would like to ask you the same question. Can 
you describe some of your duties as Deputy Assistant Secretary 
of Defense for Stability and Humanitarian Affairs in addition 
to your responsibilities related to Women, Peace, and Security 
Strategy implementation?
    Ms. Hammond. Well, thank you very much for being here today 
and highlighting the importance of the WPS initiative.
    Within the Office of Secretary of Defense where I sit, so 
I, too, have that immediate access to Secretary Esper, who has 
been very supportive of our WPS implementation plan.
    Within the Office of Stability and Humanitarian Affairs, 
the office in which I lead, we coordinate all the international 
COVID-19 assistance, so working very closely with our State 
Department and USAID colleagues on the robust interagency of 
response on behalf of our allies and partners in their 
desperate time of need for COVID-19 assistance.
    We also work on humanitarian affairs issues in general, 
especially coming alongside our USAID humanitarian affairs 
colleagues to coordinate logistical support where there is a 
unique DOD capability need that can be met to come alongside 
the robust efforts of USAID and state in natural disasters or 
chronic refugee responses. Stabilization, peacekeeping, so it 
is a robust portfolio.
    Mrs. Maloney. OK. Great.
    Ms. Bekkering, my time is up and I would ask you to submit 
the same answer to the record, and I thank all of you. And I am 
sure you are all wonderful and capable and talented and hard 
work, but I think a senior officer responsible for implementing 
the Women's Peace and Security Strategy at each department 
should be focused on that exclusively while also having direct 
access to the secretary.
    So, I will be submitting legislation to achieve that. I 
hope Chairman Lynch and Ranking Member Grothman will join us. 
The record is very clear and all research. If women succeed the 
country succeeds. There is less terrorism. There is more 
stability.
    Again, I thank you, Mr. Chairman, for your extraordinary 
sensitivity, really, and leadership on so many areas in 
national defense but also the role, important role of women 
that they can play in helping to achieve security and national 
defense.
    Thank you. I yield back.
    Mr. Lynch. I thank the gentlelady for her kind remarks. The 
gentlelady yields back.
    The chair now recognizes the ranking member for the 
subcommittee, the distinguished gentleman from Wisconsin, Mr. 
Grothman, for five minutes.
    Mr. Grothman. Sure. Thank you for all your testimony. There 
are always, you know, parts of the testimony I wish we could 
flesh out a little bit more because they--and I will start with 
you, Ms. Currie.
    I think you were the one talking about the problems we had 
with China and Russia and how they were trying to kind of muck 
up our goals.
    Could you elaborate on them a little bit?
    Ms. Currie. Certainly.
    During my time in this administration, I have had a front 
row seat at how these countries, which do not share our values 
on human rights, do not share our commitment to the core 
principles that underpin human international human rights law, 
the Universal Declaration of Human Rights, and the advancement 
of women economically, socially, politically, and the use of 
multilateral fora to accomplish these goals.
    They are--the fundamentals of human rights are really under 
attack within the multilateral system. You have countries that 
are--in particular, the People's Republic of China--seeking to 
replace the established norms that, again, have a root in our 
Declaration of Independence and our founding documents and 
reflect a commitment to human rights attaching at the 
individual level that belonged to us by birth of our own 
humanity, and they wanted to replace that concept with a 
concept of human rights where the government is responsible for 
deciding which rights you get to have and how long you get to 
hold them and how expansive they are without any check and that 
these rights don't attach at the individual level and they 
don't belong to individual people by birthright.
    So, it is a completely different ideological vision of 
human rights and they are using every tool in their playbook to 
try to implement this vision.
    Mr. Grothman. Yes, and there are always a lot of Americans 
who kind of buy into the idea that Marxism is wonderful, of 
course, and, of course, there have been different times in our 
history where a lot of Americans like to view, you know, 
communist China or communist Russia as the wave of the future, 
and it kind of interests me that those are the two countries 
you singled out as being the biggest problem when there was a 
time when so many Americans thought that was the answer to all 
human suffering.
    Could you give us some more examples of how they trample on 
human rights in China or things that this communist country 
does that we would never think of doing in this country?
    Ms. Currie. Well, I can--in the context of the Security 
Council where we have seen it very profoundly, they try to 
strip out any human rights language in Security Council 
resolutions.
    They try to remove language for protection of women and 
girls from sexual violence in Security Council resolutions and 
they try to keep the Security Council from talking about human 
rights or even holding sessions where we hear from the U.N.'s 
human rights experts, and I saw this first hand when I was 
serving in New York.
    Most recently, you have probably seen reports coming from 
Xinjiang about enforced population control of Uighurs and other 
Turkic Muslims where the Chinese Communist Party and the 
People's Republic of China are enforcing extreme draconian 
measures to limit the births of Uighur and other Muslim 
minorities in this area of China.
    And it is--the reports are profoundly disturbing. The 
secretary has spoken out very strongly about this, and we at 
the department are taking action on this, more than just 
talking about it.
    We are sanctioning individuals and the U.S.--the U.S. 
Government is working together with Treasury and with Commerce 
to sanction individuals and entities that are involved in these 
gross violations of human rights.
    Mr. Grothman. OK. I remember when I was just first involved 
in politics back in the 1970's or interested, you know, hearing 
all the young college kids thinking that China was the wave of 
the future. So, I am glad we had your testimony here.
    Ms. Hammond, I think you were the one who talked a little 
bit about human trafficking. Was it you? I think--could you 
elaborate on that? I know a lot of times human trafficking is 
another word for just plain prostitution.
    But you can tell me if this--is that what you mean by human 
trafficking and can you give us some examples there?
    Ms. Hammond. Sure. We at DOD believe that WPS promotion is 
integral to our work in combating human trafficking. So, we 
incorporate----
    Mr. Grothman. Is human trafficking--is that another word 
for prostitution sometimes? Is it more slave labor? What is it?
    Ms. Hammond. We incorporate the U.S. Government definition 
of human trafficking within the Department of Defense----
    Mr. Grothman. Yes. Yes. What is it? What is it? What does 
human trafficking entail? What do these people do if they are 
trafficked?
    Ms. Hammond. It would involve sexual trafficking, labor 
trafficking----
    Mr. Grothman. Slavery?
    Ms. Hammond. Yes. So, we incorporate----
    Mr. Grothman. In which country does slavery happen in this 
world today?
    Ms. Hammond. We see that happening throughout Southeast 
Asia, for instance, and African countries.
    Mr. Grothman. OK. Which countries?
    Ms. Hammond. Burma. There is a huge trafficking issue 
there. So, with the training that we have undertaken with WPS 
and combating----
    Mr. Grothman. Slavery in Burma, huh?
    Ms. Hammond. Yes.
    Mr. Grothman. Isn't that kind of a left-wing country? Is it 
kind of another left-wing country?
    Ms. Hammond. What we have been doing there is working 
closely----
    Mr. Grothman. Yes, I know. Is Burma--I am under the 
impression it is more of a left-wing country, right?
    Ms. Hammond. It is very corrupt, unfortunately. There are--
--
    Mr. Grothman. You don't like to say left-wing. I know.
    OK. Thank you for giving us all the time.
    Ms. Hammond. Thank you.
    Mr. Lynch. The gentleman yields back.
    I will now recognize myself for five minutes, and again, I 
want to thank you all for testifying today. Really appreciate 
the work that you do, and I know that your commitment is 
sincere, deeply felt, and solid in terms of the work that you 
do to follow and pursue the objectives of the Women, Peace, and 
Security Strategy. I know you take that work very seriously.
    I am less convinced that the work that you do and the 
passion that you feel for your cause and your mission and your 
jobs is necessarily reflected in the administration policy, and 
that is where the--that is where the gap exists.
    For my own part, I came into office--I was elected in the 
Democratic primary in Massachusetts on September 11. So, 
Afghanistan loomed large when I first came into office.
    I have been there about 20 times, you know, initially on 
defense-related initiatives, but as time went on, more and more 
with this committee and members of this committee from both 
sides of the aisle looking at the efforts to stabilize the 
country and the work that is being done around the role of 
women and girls in Afghan society.
    I think one of the best programs that I have seen over 
there and one that I think, if you look back 50 years from now, 
one that gets no notice is a program that we adopted with the 
Italians and the French and the Germans to teach Afghan women 
to read.
    It only went up to the third grade, but we taught about a 
half million Afghan women to read, and I think what will happen 
now--and they all wanted to go to the fourth grade after the--
after they completed the program.
    But it planted the seeds and those women, I am sure, are 
teaching their children how to read. And in Afghanistan, which 
had, I think, 11 percent of the women in Afghanistan knew how 
to read--could read, that will be a huge game changer, I think.
    But I know the Taliban position. That program, women would 
have been subject to the death penalty from the Taliban 
leadership if they sought to be educated in Afghanistan before 
we went in and removed the Taliban.
    So, I am deeply disappointed that the peace agreement 
signed between the United States and the Taliban earlier this 
year does nothing.
    It is really silent on the issue of protecting the rights 
of Afghan women and girls following the eventual withdrawal of 
U.S. forces. And I am not the only one.
    One of the people I have had the pleasure to work with both 
in Afghanistan but also in Syria was General John Allen, who 
commanded the NATO International Security Assistance Forces, 
and he had--I think he said it best.
    He said, and this is a quote, ``To leave the fate of Afghan 
women and girls to the Afghan government and Taliban dialog is 
a massive abdication of American and international 
responsibility to support universal human rights.''
    We should all be very clear on something. The Taliban will 
never accord Afghan women and girls the respect and the place 
in the future Afghan society that they deserve. For the U.S. 
Government to believe otherwise is either the height of naivet, 
or the willful abandonment of these women or, perhaps, both.
    Ambassador Currie, you are the Ambassador-at-large for 
Global Women's Issues at the State Department. Do you think 
Afghan women and girls will be better off or at least be able 
to retain the rights and privileges they have right now with 
U.S. forces protecting those rights once the--once the U.S. 
leaves Afghanistan?
    Ms. Currie. I think that, as you know, and I am sure you 
have spoken to many Afghan women over the years and seen what--
how resilient and tough and just--I have, personally, been 
amazed by the toughness and strength of these women, what they 
have endured, and how they have lived through it and come out 
on the other side as just made of steel.
    I know that the United States investment and the investment 
of our other partners in these women over the past 20 years has 
put them in a position that it won't be up to the Afghan 
government and the Taliban to secure those rights because these 
women will not let these rights go away.
    And at the end of the day, you know, it has never been 
great to be a woman in Afghanistan. Let us be honest. It was 
not--it was a terrible place to be a woman on September 1, 
2001, and it is still a tough place to be a woman.
    But today, more than--out of 9 million students that are 
enrolled in school, and you talk about the importance of this, 
39 percent are girls, and the life expectancy----
    Mr. Lynch. Ms. Currie, I just have to interject.
    Ms. Currie. We have done a tremendous amount of work to 
get----
    Mr. Lynch. Yes. Yes. So, I only have five minutes and you 
are eating up all my time.
    Ms. Currie. Sorry.
    Mr. Lynch. OK. So, I have had an opportunity--like I said, 
been there about 20 times--driven through Taliban country.
    Women aren't even allowed to leave the house--women are not 
even allowed to leave the house unless they are in the company 
of a--their husband or a male spouse--excuse me, a male 
sibling. Excuse me.
    So, they are not even allowed to leave the house. They are, 
you know, and from head to toe covered completely. It is a 
different world.
    So, I do not believe that the women in Afghanistan will 
have the ability to fight to their own fight. If they had, they 
wouldn't be in this predicament, and I just--I just think that 
we had an opportunity here and I greatly regret that I am 
seeing that commitment to women and girls in Afghanistan slip.
    With that, I will yield back.
    I now recognize the gentleman from Tennessee, my friend, 
Mr. Green, for five minutes.
    Mr. Green. Thank you, Mr. Chairman, and I appreciate your 
leadership of this subcommittee and the opportunities that you 
and I have had to get together and do some joint legislation. 
Really excited about the amendment getting added to the NDAA. I 
think it is the right thing to do to take care of those 
soldiers.
    I want to thank Chairman Maloney, too, for coming in today 
and if it hadn't been for her, here we are talking about 
advancing the rights of women and you got a bunch of guys here 
and a bunch of girls there. It just--the look isn't that great.
    [Laughter.]
    Mr. Green. So, I was very grateful to see that the 
chairwoman came in and shared a few thoughts.
    And thanks too to the ranking member for his presence and 
wisdom.
    As a nation and as people, the United States recognizes the 
dignity of each and every human being. Each one of us--man, 
woman, child--possesses natural rights granted to us by God, 
not by government.
    The purpose of government, of course, our Founders knew 
well, is to protect the rights of its citizens. People 
suffering under oppression around the world look to America as 
a beacon of hope, that shining city on a hill.
    When the brave people of Hong Kong stand up to the 
communist regime in Beijing and demonstrate for freedom, they 
look to America for inspiration and moral support. They are 
waving the American flag and holding up small statues of the 
Statue of Liberty.
    America's commitment to human rights does not just stop at 
our borders. It is a key aspect of our foreign policy and the 
Trump administration recognizes how important it is that human 
rights, including the rights of women and girls, be promoted 
and protected.
    Indeed, the president's National Security Strategy states 
that, and I quote, ``Governments that fail to treat women 
equally do not allow their societies to reach their full 
potential, while societies that empower women to participate 
fully in civil and economic life are more prosperous and 
peaceful,'' end quote.
    This isn't just a platitude. President Trump has backed his 
policies with action. As we have seen over the past four years, 
the Trump administration has mounted an extensive concerted 
effort to promote the rights of women and girls abroad.
    The United States Strategy on Women, Peace, and Security 
details the various avenues that the Trump administration is 
taking to promote the dignity and well being of women across 
the world through the promotion of women's participation in 
civic life to robust efforts to combat the evils of sex 
trafficking, as has been mentioned. Each of the agencies before 
us is working to fulfill the aims of this strategy.
    The Trump administration has also sought to help women 
across the globe empower themselves to better their economic 
condition.
    In 2019, the president established the Women's Global 
Development and Prosperity Initiative, spearheaded by advisor 
to the president Ivanka Trump, which aims to reach 50 million 
women in the developing world by 2025.
    It is the first ever whole of government approach focused 
on women's full and free participation in the global economy. 
The WGDP seeks to enhance opportunities for women to 
participate meaningfully in the economy and advance both 
prosperity and national security.
    WGDP focuses on three pillars: women prospering in the work 
force, women succeeding as entrepreneurs, and women enabled in 
the economy. This groundbreaking initiative recognizes the fact 
that free market policies are the key to empowering women 
across the globe.
    These actions stand in powerful contrast to bad actors in 
the world who use oppression and injustice as tools of power. 
It is no accident that our greatest adversaries in the world 
are among the worst violators of human rights.
    The theocratic regime in Iran prosecutes religious 
minorities and restricts the rights of women, all while funding 
terrorist groups like Hezbollah and Hamas.
    We have also seen shocking actions by China's totalitarian 
regime, and I will blast through this because it has already 
been amply noted by some of our witnesses.
    One thing that wasn't mentioned, Christians--Christian 
churches in China right now, they are actually forcing them to 
take down the image of Christ and the cross and replace it with 
a picture of Xi Jinping. That state will suffer no other god.
    Members from both sides of the aisle are boldly and 
unceasingly speaking out against the tyranny of the Chinese 
Communist Party as well as other oppressive governments who 
abuse the rights of their own people, especially women.
    We are blessed to live in a country that protects women's 
rights and the rights of human beings, and I hope this 
committee will continue its work in a bipartisan fashion.
    I appreciate the leadership of our chairman, working 
closely with the Trump administration to promote human rights 
abroad.
    One quick question in five seconds. What can we do better? 
And I open that to anyone.
    Ms. Currie. First of all, I want to say that we do need our 
male colleagues to help advance this agenda.
    [Laughter.]
    Ms. Currie. So, we are not going to hold that against you.
    Mr. Green. Thanks.
    Ms. Currie. And it is not enough for women to advocate on 
behalf of these issues, but we need everybody in our society 
and it is--just like in Afghanistan, we need the male leaders 
in Afghanistan to recognize and advocate for the rights of 
women. It won't be enough to have the female negotiators doing 
that. So, we are really working on that.
    As far as what we can do better, I think that, you know, we 
are very fortunate that we do have such robust bipartisan 
support around this issue and in this age of divisive--
everything being politicized all the time.
    I would just make a plea that we keep this as an area of 
strong bipartisan cooperation because it is an area where we 
have so much in common and so much consensus where we can 
really do good in the world and work together in this way.
    Thank you.
    Mr. Lynch. The gentleman's time has expired.
    The chair now recognizes the distinguished gentleman from 
California, Mr. Rouda, for five minutes.
    Mr. Rouda. Thank you, Chairman Lynch, for organizing this 
meeting and this hearing.
    I would like to start out and say that I do agree with my 
colleague across the aisle that the United States has been a 
beacon for democracy for other countries to look to, including 
demonstrators in Hong Kong.
    Unfortunately, though, under this administration when we 
see an administration, a president of the United States, use 
Federal troops to literally walk over innocent protestors for a 
photo op in front of a church and to send Federal police, a 
term not typically associated here in the United States, to, 
again, attack peaceful protestors without any identification 
whatsoever, unfortunately, we no longer hold that mantle that 
we have held for so long as a beacon of democracy for many 
countries across the Nation, and I look forward to the day when 
we can get back to being that beacon.
    I appreciate the comments that the Ambassador made earlier 
about human rights, and I know that all of us hold those near 
and dear here in this room and across our country.
    According to the Office of the U.N. High Commissioner for 
Human Rights, quote, ``Women's sexual and reproductive health 
is related to multiple human rights including the right to 
life, the right to be free from torture, the right to health, 
the right to privacy, the right to education, and the 
prohibition of discrimination.''
    Is there anybody here that disagrees with that comment, 
from our witnesses?
    [No response.]
    Mr. Rouda. Great. Thank you.
    Unfortunately, since assuming office in 2017, the Trump 
administration has restricted access to sexual and reproductive 
health for women and girls around the world, limiting their 
ability to meaningfully engage in political and civic life.
    Three days after his inauguration, President Trump 
reinstated the Mexico City policy, also known as the Global Gag 
Rule, which prohibits international NGO's receiving U.S. 
funding from performing or promoting abortions.
    This includes NGO's that also seek to expand access to 
contraception, prevent and treat HIV and AIDS, combat malaria, 
and improve maternal and child health.
    More recently, the Trump administration has sought to 
weaken, if not outright remove, language in United Nations 
documents that refer to women's sexual and reproductive health. 
In fact, the Trump administration has also sought to remove 
sexual and reproductive rights language from U.N. Security 
Council resolutions.
    In September 2019, U.S. Secretary of Health and Human 
Services Alex Azar told the U.N. General Assembly that the U.S. 
does not support, quote, ``references to ambiguous terms and 
expressions such as sexual and reproductive health and rights 
in U.N. documents,'' unquote.
    In May 2019, U.S. representatives reportedly attempted to 
remove references of sexual and reproductive health in a G-7 
communication that described how improved health care access, 
quote, ``is critical to women's empowerment,'' unquote.
    Ambassador Currie, as the Ambassador-at-large for Global 
Women's Issues, will you commit today to speak truth to power 
and call out the administration when its agenda is actually 
harmful for women and girls around the world?
    Ms. Currie. Thank you for your question, Congressman.
    [Clears throat.]
    Ms. Currie. Excuse me. Sorry.
    First of all, I wanted to clarify that there is no 
internationally recognized human right to an abortion. That is 
not a recognized right. It is not in the Beijing 25.
    It wasn't codified in Beijing 25 years ago, and under U.S. 
law, under the Kemp-Kasten Amendment, which has been included 
in every foreign operations appropriation act since 1985, the 
administration is required to ensure that no U.S. taxpayer 
funds be made available to any organization or program----
    Mr. Rouda. And is it your position and the Trump 
administration that that applies to contraceptives as well?
    Ms. Currie. We do not restrict access to contraceptives. 
The United States is the world's larger provider of family 
planning assistance and I am sure my colleague from USAID can 
provide you with the exact figures on that.
    We remain the world's largest provider of family planning 
assistance and continue to do that through massive expenditures 
of bilateral and multilateral assistance.
    We will not, however, provide funds to the United Nations 
Family Planning Agency because they continue to have a 
cooperative relationship with China's Family Planning 
Administration.
    China's Family Planning Administration continues to use 
coercive family planning methods. We have done a comprehensive 
finding on this and, as a result, we cannot provide funding to 
UNFPA.
    Again, as I mentioned earlier when we were talking about 
the Security Council, the Security Council negotiations are 
very complicated and I think that there has been a gross 
oversimplification of what happened last year in the sexual 
assault and in conflict resolution.
    There were a lot of process issues involved with that. But 
I assure you that we did not remove language because that 
language has never appeared in any UNSCR on that topic and we 
have been the pen holder on that UNSCR for--since its creation.
    So, I know that we feel very strongly in our role as a 
permanent member of the Security Council that we have to 
protect the consensus around this when countries such as Russia 
and China are trying to remove this agenda item from the 
Security Council's agenda, and we are very protective of it. It 
is unfortunate that this has become a politicized issue where 
it never was before.
    Thank you.
    Mr. Rouda. Thank you, and actions always do speak louder 
than words, and with that, I yield back to the chair.
    Thank you.
    Mr. Lynch. The gentleman yields back.
    The chair now recognizes the ranking member for the full 
committee, the gentleman from Kentucky, Mr. Comer, for five 
minutes.
    Mr. Comer. Thank you, Mr. Chairman, and I would like to 
begin talking about Afghanistan.
    Many members in Congress, including myself, are pretty 
adamant about wanting to pull back most if not all of our 
troops in Afghanistan.
    But one of the things that we need to talk about here in 
today's hearing is the successes we have had in Afghanistan 
from the Bush Administration, Obama Administration, Trump 
administration with respect to women.
    Ambassador Currie, over the past 17 years have Afghan women 
gained significantly more rights in Afghanistan than before, 
such as the ability to participate in entrepreneurship and 
political leadership?
    Ms. Currie. Yes, sir.
    Mr. Comer. Can you list some of the advances?
    Ms. Currie. Their rights are constitutionally protected 
now. Their rights are enshrined in the constitution of 
Afghanistan.
    You have more than a 100,000 women enrolled in universities 
in Afghanistan and you have two female ministers in the 
government now, nine female deputy ministers, four female 
Ambassadors including our Ambassador here in Washington, who I 
work very closely with and is a good friend, and Afghanistan's 
Ambassador to the United Nations, two of their most senior and 
important roles.
    Twenty-eight percent of women in the lower house of--28 
percent of the lower house of Parliament is women, which beats 
us, thank you very much.
    [Laughter.]
    Ms. Currie. And 26 percent in the upper house of 
Parliament, also better than our record.
    So, I think that you can say that women have made 
substantial progress in Afghanistan.
    Is Afghanistan still a very difficult place to be a woman? 
Absolutely, and the farther you get from Kabul the more 
difficult it gets. If you are out in Helmand, your life is 
terrible. I am not going to lie about it or even try to 
sugarcoat it because it is pretty awful.
    But the goal here, peace is going to be better for women in 
Afghanistan than continued conflict, and coming to a place 
where they are creating their own future and charting it on 
their own and on their own path, self-reliance without having 
to rely on the United States for security is a better deal for 
the Afghan women in the long run. That is what we are working 
toward.
    Mr. Comer. That is good to hear.
    Let us switch gears and talk about the Taliban. What are 
the--what is the Taliban's record with respect to women's 
rights?
    Ms. Currie. Abysmal.
    Mr. Comer. So, there was an agreement in February that 
stated on March 10 the Taliban would start intra-Afghan 
negotiations for peace.
    Ambassador Currie, are women involved in those 
negotiations?
    Ms. Currie. Yes, sir. They represent 20 percent of the 
negotiating team from the government side.
    Mr. Comer. Well, I know the Trump administration is 
committed to defending the long fought for and earned rights of 
women in Afghanistan. Protecting these rights will not only 
lead to stronger and safer Afghanistan but also a stronger and 
safer America.
    I look forward to continuing the discussion with all of you 
all today. Please keep the committee updated on negotiations as 
they continue.
    And, Mr. Chairman, I yield back.
    Mr. Lynch. The gentleman yields back.
    The chair now recognizes the ranking member of the 
subcommittee, Mr. Grothman, for any closing remarks.
    Mr. Grothman. Sure. I would like to thank you all for being 
here today. I appreciate all your work.
    My couple comments or as far as suggestions, you mentioned 
that so much of our problem comes from China and Russia, which 
are, you know, maybe the two most dominant communist or Marxist 
countries in the world.
    And the reason I wanted you to repeat that or bring it up 
again is we always have a danger here in this country that our 
young people will be told that if only we adapted a more 
Marxist line of things that things would get better here, and I 
think it is important to educate people around the world where 
Marxism leads and the absolute power of the state.
    I notice people on the other side of the aisle. When they 
look at women's rights they primarily associate it with 
reproduction.
    I will caution you because there are some things in the 
United States that I don't think we should be proud of and I 
don't think we should be exporting around the world, and there 
are always going to be politicians who are going to try to be 
pushing them.
    I mentioned the United States as one of seven countries in 
the world that allows late-term abortion. I don't think we 
should, as the United States, be using our economic might to be 
imposing those values around the world.
    I know in this country we fund Planned Parenthood, which 
may put young gals 14 or 15 years old on the Pill without their 
parents' knowledge.
    I don't think that is necessarily a good thing. I think a 
lot of Americans would be concerned if they found out that 
American dollars were going to oppose those values on young 
girls around the world.
    But I appreciate you all being here today. It is really 
refreshing to see, as we get so many people from the 
administration, people who are enthusiastic about their job and 
so knowledgeable.
    So, I learned a lot today and I guess the most enjoyable 
thing I learned was meeting you guys. Thanks so much for being 
here.
    Mr. Lynch. The gentleman yields back.
    In closing, I do want to thank you for your testimony here 
today and for participating in this hearing, and also for the 
work that you do. We deeply appreciate that.
    I also want to commend my colleagues for participating in 
this important conversation in this hearing.
    With that, without objection all members will have five 
legislative days within which to submit additional written 
testimony, questions to the witnesses to the chair, and which 
will be provided to the witnesses for their response.
    I ask our witnesses if you do receive such requests to 
please respond as promptly as you are able.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
